<html>
<title> - BUILDING ECONOMICALLY RESILIENT COMMU- NITIES: LOCAL AND REGIONAL APPROACHES</title>
<body><pre>[Senate Hearing 113-517]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-517

 
                 BUILDING ECONOMICALLY RESILIENT COMMU-
                 NITIES: LOCAL AND REGIONAL APPROACHES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
           HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 OF THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING LOCAL, REGIONAL, STATE, AND FEDERAL EFFORTS TO PROMOTE STRONG 
    AND ECONOMICALLY RESILIENT COMMUNITIES ACROSS THE UNITED STATES

                               __________

                             JULY 22, 2014

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
                                
                                
                                
[GRAPHIC IS NOT AVAILABLE IN TIFF FORMAT]



                 Available at: http: //www.fdsys.gov /
                 

                                ___________
                                
                                
                                
                            U.S. GOVERNMENT PUBLISHING OFFICE
91-865 PDF                      WASHINGTON : 2015                            
                 
 __________________________________________________________________________________________              
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92f5e2fdd2f1e7e1e6faf7fee2bcf1fdffbc">[email&#160;protected]</a>  






            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

                       Dawn Ratliff, Chief Clerk

                       Taylor Reed, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

   Subcommittee on Housing, Transportation, and Community Development

                 ROBERT MENENDEZ, New Jersey, Chairman

             JERRY MORAN, Kansas, Ranking Republican Member

JACK REED, Rhode Island              BOB CORKER, Tennessee
CHARLES E. SCHUMER, New York         PATRICK J. TOOMEY, Pennsylvania
SHERROD BROWN, Ohio                  MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 TOM COBURN, Oklahoma
JOE MANCHIN III, West Virginia       DEAN HELLER, Nevada
ELIZABETH WARREN, Massachusetts      RICHARD C. SHELBY, Alabama
HEIDI HEITKAMP, North Dakota

              Brian Chernoff, Subcommittee Staff Director

         William Ruder, Republican Subcommittee Staff Director

                 Jackie Schmitz, Legislative Assistant

                                  (ii)


                            C O N T E N T S

                              ----------                              

                         TUESDAY, JULY 22, 2014

                                                                   Page

Opening statement of Chairman Menendez...........................     1

Opening statements, comments, or prepared statements of:
    Senator Heller
        Prepared statement.......................................    23

                               WITNESSES

Steven M. Fulop, Mayor, Jersey City, New Jersey..................     3
    Prepared statement...........................................    23
Joseph A. Calabrese, CEO and General Manager, Greater Cleveland 
  Regional Transit Authority.....................................     4
    Prepared statement...........................................    26
Lee Gibson, AICP, Executive Director, Regional Transportation 
  Commission of Washoe County (RTC)..............................     6
    Prepared statement...........................................    27
Claire A. Collins, Supervisor, Bath County, Virginia, on behalf 
  of the National Association of Counties (NACo).................     8
    Prepared statement...........................................    31

              Additional Material Supplied for the Record

Newspaper articles submitted by Joseph A. Calabrese..............    35
RTC 2035 Regional Transportation Plan Pocket Book submitted by 
  Lee Gibson, AICP...............................................    42
Letter submitted by Jimi Grande, Chairman, BuildStrong Coalition.   140

                                 (iii)


    BUILDING ECONOMICALLY RESILIENT COMMUNITIES: LOCAL AND REGIONAL 
                               APPROACHES

                              ----------                              


                         TUESDAY, JULY 22, 2014

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
    Subcommittee on Housing, Transportation, and Community 
                                               Development,
                                                    Washington, DC.
    The Subcommittee met at 3:09 p.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Robert Menendez, Chairman of the 
Subcommittee, presiding.

          OPENING STATEMENT OF SENATOR ROBERT MENENDEZ

    Senator Menendez. Good afternoon. The Subcommittee will 
come to order. Today the Subcommittee will hear from four local 
communities about the work that they are doing to improve 
economic resiliency, transportation, and housing options and 
job creation.
    We hear a lot of different phrases for this type of work, 
livable communities, smart growth, transit-oriented 
development. These terms come for some with a lot of pre-
conceived notions about what they mean and what type of 
communities they work for. It can raise concerns that the 
Federal Government will dictate what our communities should 
look like or overstep local decisionmaking. And nothing could 
be further from the truth.
    Real smart growth allows local residents and stakeholders 
to build a community that works for them, one that has 
transportation choices that make sense for their region, a 
strong housing market, thriving businesses, and access to good 
jobs. These are goals that all of our States and communities 
share, but how they actually achieve them can look very 
different. There is no one-size-fits-all approach to building a 
strong economically resilient community, and so, we are here 
today to hear some of those different versions.
    I am pleased that Mayor Steven Fulop of Jersey City is here 
today to highlight one example of how to strengthen a community 
and to share one of the greatest success stories in my home 
State. The Hudson Bergen Light Rail System connects the north 
Jersey communities of Bayonne, Jersey City, Hoboken, Weehawken, 
Union City, and North Bergen. The light rail system has 
revitalized the regions, spurred new development, helped local 
businesses. It has been a catalyst for economic growth and 
brought new jobs to the neighborhoods along the line.
    Jersey City is an example of what is possible, what we can 
achieve when we invest in our infrastructure, when we invest in 
our future. This light rail system is a model for a lot of 
other cities around the country and represents just one of many 
choices that a community can make to become a truly livable 
community built on economic resilience and smart growth.
    My hope is that our witnesses will explain the diverse 
options available to communities that support smart growth 
policies for the 21st century economy. It is also critical to 
have Federal support in these efforts. In 2009, HUD, the 
Department of Transportation, and the EPA launched the 
Partnership for Sustainable Communities, designed to 
incorporate livability principles into Federal policymaking and 
improve cooperation between agencies and with local 
communities.
    The partnership has since helped more than 1,000 urban, 
suburban, and rural communities throughout the Nation with 
grants and technical assistance. It has reduced barriers, 
provided support and expertise, and has led to more efficient 
use of taxpayer money through better planning and coordination. 
The partnership is a worthy example of Federal leadership and I 
hope to hear from our witnesses how we can maximize this 
approach in the future.
    Following this hearing, I intend to re-introduce my Livable 
Communities Act legislation, which had 19 cosponsors in the 
previous Congress, and provides Federal support for communities 
working to develop regionally driven solutions to their 
transportation, housing, environmental, and job creation 
challenges. It supports comprehensive planning, making sure 
that communities are working together to build a future that 
supports economic growth, provides strong transportation and 
housing options, and creates and sustains job growth and 
development.
    The goal of my legislation is to support the type of great 
work that we will hear more from our witnesses today, and I 
look forward to working with my colleagues to help pass it.
    With that, let me introduce our panelists. They are Mayor 
Steven Fulop of Jersey City. Mayor, thank you for coming down 
to Washington and bringing a good dose of New Jersey pride to 
the Nation's capitol and we look forward to hearing you share 
the experiences that you have had in Jersey City as a resident, 
as a Councilman, and now as Mayor.
    We also have with us Joseph A. Calabrese, the Chief 
Executive Officer and General Manager of the Greater Cleveland 
Regional Transit Authority. Thank you for coming. Lee Gibson, 
who is the Executive Director of the Regional Transportation 
Commission of Washoe County in Nevada. Thank you. And Claire A. 
Collins, a Supervisor of Bath County, Virginia, on behalf of 
the National Association of Counties.
    Let me start off by saying that all of your statements will 
be fully included in the record without objection. We would ask 
you to summarize them in about 5 minutes or so, so that we can 
enter into a conversation with you. We will start off with you, 
Mayor Fulop.

  STATEMENT OF STEVEN M. FULOP, MAYOR, JERSEY CITY, NEW JERSEY

    Mr. Fulop. Chairman Menendez, thank you. First I want to 
thank the Committee for your support of smart urban development 
policy, and especially for your help through the FTA, for the 
Hudson Bergen Light Rail. It has been absolutely 
transformational for our region. I appreciate the opportunity 
to testify before you today because the issues on which this 
Subcommittee focuses are becoming increasingly important to 
every community in America, and especially to Jersey City and 
New Jersey.
    As the largest city in the most densely populated county in 
the most densely populated State in the Nation, we are seeing a 
shift in the way people live, work, travel, and interact with 
their communities. While much of the Nation does not look like 
Jersey City, it is, in many ways, a picture of what is to come. 
America becomes denser and more populous every year, so I think 
the Jersey City experience has national relevance.
    In general terms, I want to speak about today transit-
oriented development, livable communities, and investment in 
transportation infrastructure. We, as policymakers, need to 
recognize the symbiotic relationship between dense urban 
centers and more open residential communities. As the trend of 
urbanization continues, our economic prosperity will come to 
depend even more heavily on our ability to move large numbers 
of people in and out of urban centers quickly. This means 
direct Federal investment in transportation infrastructure and 
empowering the local communities to make those investments.
    I am here today to offer you Jersey City, my hometown, and 
part of your home county, as proof of that. Two decades ago, 
Jersey City's Hudson Riverfront was the picture of urban decay. 
It was a largely abandoned ex-industrial wasteland. Defunct 
railroad yards, and dilapidated warehouses dominated the 
streetscape. That area, now often referred to as the Gold 
Coast, has completed transformed.
    The decay has been replaced with glass and steel 
skyscrapers, shops, restaurants, and small businesses. 
Thousands of residential units and millions of square feet of 
retail and industrial space are under construction right now as 
we speak. The new prosperity of Jersey City's waterfront was 
built on the foundation of pre-existing public transit, the 
PATH, a trans-Hudson Metro. Thanks to Chairman Menendez and the 
rest of the Subcommittee, Jersey City's recovery accelerated 
significantly with the opening of the Hudson Bergen Light Rail 
System in 2000.
    Developers and public officials have quickly recognized the 
opportunity. As an example, the Essex Street line on the light 
rail has catalyzed the building of 3,000 residential units in 5 
years. Liberty Harbor north, another stop, a transit-oriented 
development which will consist of 6,000 residential units and 
millions of square feet of residential space, is also clearly a 
result of the light rail.
    Wherever there is a light rail or a PATH station, we see 
recovery, growth, and ultimately prosperity. The opportunity 
for expansion of the Hudson Bergen Light Rail, which would 
bring and stimulate the local economy to five more cities and 
give at least 130,000 people access to new opportunities by 
extension into Bergen.
    I urge the Subcommittee to support this project, and one 
look at the effects of the current light rail proves the value 
of this investment. Rail transportation and transit-oriented 
development drive economic development as well. Because of the 
light rail, the PATH and the implementation of housing policies 
which maximize their benefits, Jersey City has become a 
regional employment center. Every day 100,000 people come to 
Jersey City from New Jersey and New York to work, shop, and 
dine. Put simply, Jersey City is flourishing because it is 
interconnected with surrounding communities.
    This phenomenon is not unique to Jersey City. The Center 
for Housing Policy recently completed a review of studies on 
housing prices and proximity to rail and their findings make a 
powerful argument for transportation infrastructure. According 
to dozens of studies from across the country over decades, a 
nearby rail stop can add 6 to 50 percent to home values. When 
people are linked to opportunities, cities prosper.
    Transit is only one way to bring people and opportunities 
together. Another way to connect people with cultural, social, 
educational, economic opportunities is to create those 
opportunities where they live. This approach, livable community 
developments, means developing housing and transportation 
choices near jobs, shopping, schools, and parks. The resulting 
neighborhoods are healthy and environmentally friendly with 
vibrant local economies and a strong sense of place and 
community.
    In conclusion, let me reiterate my appreciation for the 
Subcommittee's continued support for smart, sustainable urban 
planning and development policy. As you consider how to keep 
our communities competitive and healthy, I urge you to empower 
local governments, rather than restrict them, and give them 
tools rather than mandates.
    Thank you for the opportunity to testify here today and I 
look forward to participating in discussion around these issues 
in the future.
    Senator Menendez. Thank you, Mayor. Mr. Calabrese.

  STATEMENT OF JOSEPH A. CALABRESE, CEO AND GENERAL MANAGER, 
          GREATER CLEVELAND REGIONAL TRANSIT AUTHORITY

    Mr. Calabrese. Yes. Thank you. Thank you, Chairman. Thank 
you for this opportunity. My name is Joe Calabrese. I am the 
General Manager of Greater Cleveland Regional Transit 
Authority. We run heavy rail, light rail, bus rapid transit, 
and paratransit services. We serve about 200,000 people on a 
typical weekday. About 63 percent of our customers are going to 
work; another 23 percent are going to educational 
opportunities, two very important functions as we know.
    As in many other cities, the use of public transit and the 
appreciation for what it does is growing significantly. RTA's 
biggest challenge is keeping up with our aging infrastructure 
and state-of-good-repair needs for which Federal dollars are 
crucial. USDOT estimates that nationally we have a backlog of 
$87 billion in state-of-good-repair needs just for normal 
replacement needs. This is very, very important.
    There is a tremendous resurgence going on today in 
Cleveland. In the past few weeks, there have been articles in 
the New York Times, L.A. Times, and USA Today chronicling 
Cleveland's resurgence. Political, civic, and business leaders 
credit a visionary public transit project, which opened in 
2008, as jump-starting that economic development. The 
investment was a Bus Rapid Transit project along Cleveland's 
main street, Euclid Avenue, which we named the HealthLine. And 
as better stated by Toby Cosgrove, the CEO of the Cleveland 
Clinic, it was great for the health of the city.
    While the HealthLine shares many characteristics of a light 
rail system, except the vehicles are on rubber tires and not 
steel wheels, we were able to build it and maintain it for 
roughly one-third the cost. These comments are by no means 
anti-rail. In many situations, rail is the right alternative, 
and many bus rapid transit may also be a great alternative that 
is maybe more affordable.
    Our commitment to the community was the HealthLine would be 
fast, clean, safe, and first class. The project was very 
comprehensive. It included new sidewalks, new curbs, new 
roadway, new lighting, new traffic signaling, bike lanes while 
108 bus stops were converted to 36 well-lit and well-landscaped 
stations. The city of Cleveland even took the opportunity to 
upgrade water lines and sewer lines that really were in 
tremendous need of upgrade.
    The net result for our customers was ridership went up 30 
percent--48 percent as travel time improved by 30 percent. In 
the first 5 years--we just celebrated the fifth anniversary--
ridership has gone up 60 percent over our highest ridership bus 
route. The net result for the community was billions of dollars 
of economic development.
    The $168.4 million New Starts grant, 50 percent of which 
was funded through the FTA program, has now leveraged over $5 
billion of development. In a front page article in the 
Cleveland Plain Dealer in February of 2008, months before it 
opened, and the title of the article was the Rebirth, the 
project was already credited with $4.3 billion in economic 
development throughout the corridor.
    The true success of what we did is not the money we spent, 
but really how others leveraged the money we spent to make it 
much, much more and much, much better. In a 2013 study by the 
Institute for Transportation Development Policy, concluded the 
HealthLine had the highest return on investment for any public 
transit project in the country at $114 invested for every one 
dollar of transit project.
    Thousands of new housing options have been built, both 
market-based and subsidized, 140,000 square feet of offices 
have been renovated, 444,000 square feet of new construction 
has happened. In addition to the 3,360 man-months for 
construction, an additional 1,940 jobs were created and land 
prices have doubled in the midtown area, an area traditionally 
suffering from very, very low occupancy.
    My champion on this project is someone known in this 
chamber. It was Mayor George Voinovich who saw the vision for 
this project, it was Governor George Voinovich who supported it 
with some local funding, and it was Senator George Voinovich 
who led the charge for Federal participation for this very, 
very successful endeavor.
    I am proud of the role that public transit played in 
leading this tremendous resurgence in a city that, quite 
honestly, needed a lot of help. This could not have been done 
without the commitment from the Federal Transit Administration 
and the support of Congress.
    I urge a timely, long-term fix for the Highway Trust Fund 
and the Mass Transit Account which includes increased 
investment for infrastructure, state-of-good-repair efforts, 
workforce development, and for projects such as the HealthLine. 
Without a long-term solution with predictable dedicated 
funding, projects such as this simply could not happen as they 
take years to plan, design, and build.
    Such projects can revitalize our cities, meet the mobility 
needs of our residents, and create jobs. Thank you.
    Senator Menendez. Thank you. We are on a roll here. Neither 
of you have used your 5 minutes and that is unusual here, to be 
honest with you. Mr. Gibson.

  STATEMENT OF LEE GIBSON, AICP, EXECUTIVE DIRECTOR, REGIONAL 
        TRANSPORTATION COMMISSION OF WASHOE COUNTY (RTC)

    Mr. Gibson. Thank you, Mr. Chairman.
    Senator Menendez. And I do not want that to--no pressure. 
You use all of your time.
    Mr. Gibson. I will do my best to imitate the Federal 
Express commercial.
    Thank you, Chairman Menendez. I want to thank you for the 
opportunity to be here today and tell the RTC story. I also 
want to take a moment and thank Senator Majority Leader Harry 
Reid and Senator Dean Heller from Nevada. They are both close 
friends and I know they could not be here today, but I 
appreciate how they have been very, very supportive of the RTC 
in the past.
    Let me talk a little bit about who the RTC is. We are the 
metropolitan planning organization, we are the transit 
authority, and we are the street and highway building agency 
for the entire area of Washoe County. We serve a population of 
500,000 residents and we welcome 5 million visitors a year to 
our region.
    The recession was a critical event in a critical moment for 
my community. At the peak of the recession in 2008, voters in 
Washoe County approved a plan to index fuel taxes to inflation 
and improve the purchasing power of our local option fuel tax 
to make up for the lost projects we had not been able to fund 
over time.
    We coupled that with a vigorous planning program, and 
updated our regional transportation plan. We have been moving 
forward with a number of key livability projects. Now, 
livability is something we hear a lot about, but in my 
community, livability is a two-edged sword that cuts across 
both current challenges and the future.
    In terms of current challenges, what we attempt to do in 
livability is help provide for jobs, housing, and education, 
and consistent with the RTC's mission, connect folks to those 
opportunities so that they continue to thrive and continue to 
stay and grow in our community. We believe in life cycle 
transportation. When you look at the question of livability and 
how we are going to connect to people throughout time, that is 
something we try to strive for and provide in our highway and 
transit programs.
    The other thing we are doing is moving forward, and working 
very vigorously to provide opportunities in economic 
development, specifically to target projects from the freight 
and logistics sector. In Reno we are at the tip of the spear, 
if you will, for a lot of international trade that comes in and 
out of the Bay Area. We want to make sure our interstate system 
and local roads provide the connectivity and access to 
industrial areas that will allow us to serve those with global 
needs.
    At the same time, we have a very fast and emerging area of 
our town called midtown. It is close to downtown and the 
University of Nevada-Reno. We are working vigorously to connect 
those three areas with a bus rapid transit investment that is 
going to spur new technology businesses, tap into the wealth of 
intellectual capital at UNR, and tie all three of our areas, 
the University, downtown, and midtown together so that we can 
begin to diversify into high tech and into more intellectually 
oriented economic opportunities.
    We believe that transit is a key component. We have a blue 
ribbon committee that is bringing our community together to 
look at the needs of the public transportation system, but more 
importantly, take that forward. Seniors and millennials are two 
particular groups we are focusing on. We believe they are the 
ones who have significant needs today. Seniors obviously are 
facing key challenges.
    During the recession, many seniors moved to outlying areas 
where housing was cheaper because they wanted to tap into 
savings and equity that they had built up or they wanted to get 
to it before it was lost. As a result, we now have a situation 
where many people are outside of our paratransit service area, 
but are in want and need of transit service.
    Millennials have interesting behavior patterns. They want 
to save time. They want to use as much time as they can for 
intellectual activities related to either economics or 
entertainment. They view transit as a way that they can spend 
more time using their brains. The more we all know, think, act, 
and be creative, the more economic activity is created.
    We want to make sure we construct transit opportunities for 
the millennials so they can contribute their unique perspective 
and experiences to our economy and grow our community, but, 
hopefully, stay in our community.
    Just as my fellow members of this panel believe in a strong 
Federal program, we, too, believe in a strong Federal program. 
We believe that Congress should act to raise the fuel tax. We 
have done it at the local level. We did it without political 
risk. People are very proud of what we have done. We believe 
Congress should act the same, or move toward other innovative 
financing sources.
    I am not an expert in finance or tax policy, but if we can 
bring money back on shore, tax it at a lower rate, and dedicate 
it to infrastructure, it seems to me that is a logical 
opportunity to help move our transportation system forward and 
develop a globally competitive economy.
    Finally, I do want to say, regulatory reform and empowering 
local governments and regional bodies to work effectively is a 
key principle that I believe in, and I would hope that the 
Congress, as it addresses re-authorization, does the same. 
Thank you for your time.
    Senator Menendez. Thank you. Supervisor Collins.

   STATEMENT OF CLAIRE A. COLLINS, SUPERVISOR, BATH COUNTY, 
  VIRGINIA, ON BEHALF OF THE NATIONAL ASSOCIATION OF COUNTIES 
                             (NACo)

    Ms. Collins. Thank you, Chairman Menendez, and I want to 
also thank Ranking Member Moran.
    Senator Menendez. If you would just take your microphone 
and put it there?
    Ms. Collins. Yes, thank you. I am a County Supervisor in 
Bath County, Virginia. I am testifying today on behalf of the 
National Association of Counties, NACo, which represents all 
3,069 county governments in the United States, and assists 
counties in pursuing excellence in public service to produce 
healthy, vibrant, safe, and resilient counties.
    I will focus my remarks on how counties, and especially 
rural counties like Bath County, have bolstered their ability 
to thrive amid ever-shifting physical, social, and economic 
conditions and what more can be done at the Federal level to 
support local economies.
    First, Mr. Chairman, counties play a distinctive role in 
economic resiliency as stewards of their local communities and 
are an integral part of our Nation's inter-governmental system. 
Counties are responsible for supporting and maintaining key 
public infrastructure, transportation and economic development 
assets, creating and sustaining a skilled workforce to meet the 
needs of businesses, promoting public health and public safety 
to protect our citizens, and implementing a broad portfolio of 
Federal, State, and local programs in a cost-effective and 
accountable manner.
    My county, Bath County, is located in the Allegheny 
Mountains of Virginia with a population just over 4,600. 
Although we face many challenges, we are focusing on improving 
our transportation systems, developing infrastructure, 
providing affordable housing opportunities, and building and 
sustaining a skilled workforce that can help our community be 
globally competitive.
    For an example of how we are working to create the 
partnerships and environment needed for economic resilience, 
Bath County uses its convening powers to engage businesses as 
part of the Shenandoah Valley Partnership, SVP, which includes 
the neighboring counties of Augusta, Highland, Page, 
Rockingham, Rockbridge, and Shenandoah.
    SVP is not only a public-private partnership, but is the 
one-stop economic development resource for businesses seeking 
expansion or location in Virginia's Shenandoah Valley. This 
partnership between the public and private sectors brings 
together business, government, and education leaders to promote 
new investment, strengthen existing business and guide labor 
force development to ensure a healthy economic future for the 
region.
    Second, Mr. Chairman, improving transportation systems, 
housing options, and job opportunities is critical to enhancing 
local economic development and resiliency. Counties across the 
country are also responsible for building and maintaining 45 
percent of the public roads, 230,690 bridges, and are involved 
in a third of the Nation's transit and airport systems that 
connect residents, businesses and communities.
    Based on Federal Highway Administration data, the share of 
Federal and State funding to local governments for highways 
decreased by 10 percent between 1998 to 2011. While local 
governments own 43 percent of the Federal-aid highway systems, 
local areas receive a sub-allocation that is equal to 16 
percent of the MAP-21 National Highway Performance Program and 
the Surface Transportation Program funding for Federal-aid 
highways.
    A combination of Federal budget cuts, the effect of the 
recession on State and local governments are contributing to a 
widening gap in transportation available to fund counties. 
Despite these challenges, counties spend $106 billion annually 
to build, maintain, and operate roads, bridges, transit, water 
systems, and other public facilities.
    NACo has also found that counties can facilitate economic 
growth by leveraging transportation infrastructure assets to 
forge private sector partnerships and attract new businesses. 
Counties across the Nation invest $25 billion annually in 
economic development.
    For example, Rutherford County, North Carolina, with a 
population of 67,300, used the decline of local manufacturing 
as an opportunity to diversify and strengthen its economic 
base. They did this by treating existing infrastructure assets, 
such as vacant industrial buildings and robust electric power 
and water network and broadband expansion, as marketing tools 
to attract data centers. In 2010, Rutherford County 
successfully recruited Facebook to invest over $9 million in 
two new data centers.
    Third, Mr. Chairman, strengthening the Federal-State-local 
partnership is critical to local economic resiliency. The 
growing burden taken on our local and State governments is 
especially problematic for our Nation's rural communities. For 
example, in Bath County, we are partnering with the Federal 
Government to develop and expand broadband accessibility 
through HUD's CDBG program, and we also have been awarded two 
CDBG community improvement grants for housing, rehabilitation, 
and renovation that we are proud to offer for workforce and 
affordable housing.
    In conclusion, Mr. Chairman, counties have a unique role in 
economic development and building resilient communities. We 
thank you today and we would like to continue the strategic 
partnership with the Federal Government.
    Senator Menendez. Well, thank you all for your testimony 
and insights and the efficiency with which you delivered it. 
You all beat the clock.
    And it is interesting to listen, regardless of the size of 
the communities or regions that we are talking about, that 
there is a strong component of transit here, some form of 
transportation, at the core of creating whatever you call it, a 
livable community, a transit-oriented community, however we 
might pursue it.
    So let me start off with Mayor Fulop. You know, Jersey City 
shows how transit-oriented development can work. It has an 
excellent multi-modal transportation system. You have got PATH, 
which for those who may not recognize the acronym, is the line 
that goes between New York and New Jersey under the Hudson 
River, ferries, bicycling, bus system, connection to the 
Northeast Corridor. We have talked about the Hudson Bergen 
Light Rail.
    Second, your city has zoned development to meet demand near 
transit, and its high density and mixed use creating apartments 
over retail, the street life that comes with it, many new 
developments do not have parking minimums and some have parking 
maximums.
    So in that context, what is a line like the light rail line 
done for residential and commercial growth in Jersey City and 
along the Hudson waterfront? And what is demand for housing, 
for example, near the line? And what do you think are some of 
the tangible benefits of day-to-day life for those who choose 
to live along those locations?
    Mr. Fulop. So we are building in Jersey City and we are 
building very big right now. As you know, we have constructions 
projects, 70 stories, 66 stories, 54 stories. I could 
comfortably say that in the next 4 years, more than likely the 
20 largest buildings in the State of New Jersey will all be in 
Jersey City and all of our taken to work as the largest city in 
the State. Most of that is attributed to the Hudson Bergen 
Light Rail and the PATH system.
    So as you touched on, we have rezoned the areas and the 
density around those light rail stops and PATH stops and we 
have limited the requirements on the parking spots. And what we 
have seen is that you see people moving to Jersey City, filling 
those apartments rapidly, not using vehicles, and you have 
seen, obviously, restaurants and the streetscape change as a 
result of the density that has populated them.
    It is also important to note that we are filling those 
apartments as quickly as we are building them, and that speaks 
also to vibrancy and the development based on the investment in 
infrastructure and mass transportation in Jersey City.
    Senator Menendez. What about the ratable base as a result 
of it?
    Mr. Fulop. In the last year, we had an increase of $118 
million in the ratable base, so it is significant. It has 
allowed us to have a budget that reduced taxes, a modest 
reduction this year, and with some visibility into next year. 
So the density increase has really given us a lot of benefits, 
both invisibly and then in the pocketbook as well.
    Senator Menendez. Let me ask all of the panelists. One of 
the key ingredients, it seems for me, for successful planning 
and development is to make sure that all of the relevant 
components, and each of you have talked about some of these 
elements, certainly transportation, but housing, environment, 
commercial, are working together in an integrated and 
coordinated way.
    That is true at the Federal level, as we see for the 
Partnership for Sustainable Communities between HUD, DOT, EPA, 
and the local and regional level. What is some of the work that 
your communities and agencies are doing to improve coordination 
across functional areas when it comes to planning and the 
implementation of development plans? What are some of the 
challenges that you face as you are trying to create that 
coordination? If you have any insights to share, any one of 
you?
    Mr. Calabrese. I will jump in with a shout out to Senator 
Brown. Thank you for inviting me here today.
    One thing we were doing in Cleveland, we have a great 
organization called Bugsy Build of Greater Cleveland--actually, 
Mayor Voinovich started it way back when--where all the public 
works agencies worked together, the city, the county, the Port 
Authority, the Transit Authority, sewer district, water 
district, so when major projects are planned, we can sit in a 
room and say, How can we leverage these investments so that I 
am not building a new street and a week later the sewer 
department is coming and replacing the sewers on that street.
    So just one great example of an organization that meets--we 
had actually our annual meeting yesterday, which was great. We 
meet really to talk about these major projects, how best we can 
leverage and work together on these cooperatively, which 
really, I think, helps us get the biggest bang for the dollar 
and deliver these projects much quicker and less expensively 
than otherwise.
    Senator Menendez. Mr. Gibson.
    Mr. Gibson. What we have done in Reno is we work very 
closely with a regional planning agency that is primarily 
charged with land use, and we also work with our member 
entities to develop plans and programs that really address the 
issue of trying to bring housing and transportation closer 
together.
    Our local governments have been champions for our mid-size 
metropolitan area in developing TOD areas and working to 
leverage our transit investments into their regulatory programs 
to help bring about more integration between transit, 
pedestrian facilities, bicycle facilities, and land use 
development.
    The example I used in my testimony, midtown is a great case 
in point, where we have been working very closely with a lot of 
the interests and stakeholders to bring about the realization 
of these investments so that we can move forward.
    Another case in point is 4th Prater. This is a corridor 
that links the old downtown of Sparks and the old downtown of 
Reno. This is another area we are targeting for BRT and trying 
to focus on, with our local government partners and businesses, 
specific actions to bring about better connectivity and a 
recognition, preservation, and leveraging of historic 
resources.
    This is something that it is really unique to this project. 
We have an application before the FTA--actually it is already 
cleared for project development into the FTA Small Starts 
Program. These investments, we think, are going to generate 
direct jobs that will support a special event we are all very 
proud of in the Reno-Sparks area called the Burning Man 
Festival.
    Senator Menendez. The what?
    Mr. Gibson. The Burning Man Festival.
    Senator Menendez. Burning Man Festival?
    Mr. Gibson. Burning Man Festival. That is correct.
    Senator Menendez. I think for the record it would be good 
if you explain what that is.
    Mr. Gibson. The Burning Man Festival is an event, in 
partnership with the Bureau of Land Management, out in the 
Black Rock Desert. It is where a lot of creative energy is 
focused between, I think, around 50,000 people who come to our 
community. They build a city. You can see the city in satellite 
imagery.
    The artwork that goes into this event is a year-round 
industry and we are seeing a lot of that artwork that used to 
be actually developed in the Oakland, California, area. It is 
expanding, growing, and moving into our community and it is 
being developed in the 4th Street-Prater Way corridor.
    So this is a great event. It is week-long at the end of 
August and I am running out of adjectives to describe the 
event. I think the point, though, is between our local 
governments, our regional agencies, and the private sector we 
are coming together and recognizing that we can work together, 
and through a regulatory framework that encourages these 
public-private partnerships, we are beginning to see a 
diversification and growth in our economy again. That is what 
we are really happy about.
    Senator Menendez. Let me ask one final question, well, for 
the moment, and then I want to turn to Senator Brown. You know, 
as a former Mayor, I know that meaningful participation by all 
elements of a community are critical in order to succeed. It 
opens the process to important points of views and ideas, and 
if done effectively, allows a broad range of stakeholders to 
take ownership over the final product and committed to making 
it successful.
    So I am wondering, in each of your communities, how do you 
approach the challenge of public participation, particularly 
for stakeholders of communities who are too often left out or 
risk feeling marginalized, whether those be lower-income 
families, minority communities, and what steps have you taken 
to ensure these communities are able to participate in the 
development process? Is there any experiences across the board?
    Mr. Calabrese. Chairman, in terms of the HealthLine, the 
major impetus behind this investment was really not the public 
transit riders on Euclid Avenue. It was really the businesses 
on Euclid Avenue who saw year after year their property values 
decrease and wanted to do something to really stimulate that. 
So it was really a business chamber of commerce-type driven 
project, but we saw that as an opportunity to do something 
really first class for many individuals who lived along the 
corridor who maybe never had something first class in their 
entire lives. So it really focused on that first class issue.
    But in doing that and being sure that this addressed the 
needs of those who really needed the service and those 
businesses as well, we had over 1,000 public meetings 
throughout the corridor. I mean, it was really getting 
involved, where to place the stations, what type of amenities 
they wanted, had the community assist us in terms of actually 
the station design. So a tremendous amount of input, tremendous 
amount of public meetings, tried to find out what their needs 
were and best address those through the process.
    Senator Menendez. Anyone else?
    Ms. Collins. I wanted to comment that what we do is we 
create a 5-year comprehensive plan and take it--basically, it 
is on every functional area in the community, including 
housing, economic development, transportation, even things like 
senior programs, recreational programs. And what we do is we 
take it--we actually go out in the community and get feedback. 
So it is not just a survey.
    So go into the neighborhoods and get the feedback. That is 
how these two community improvement projects for housing came 
about. Not only did the businesses say they needed them for the 
workforce, but the people that lived there said they needed 
them because they were living in structures that none of us 
would even want to live in. Did not even meet HUD Section 8 
standards.
    But yet, they were not complaining, they were going to work 
each day, or if they were retired from the major employer, they 
were making the best they could with what they had. But when 
the community saw that as part of the comprehensive planning 
process, which creates the goals and objectives for the next 5 
years, that you can put a work program to and funding to, the 
community then set out and let us make that be a capital 
project that can improve those two neighborhoods so that we 
have affordable housing not only for those living there now, 
but for the young people in the future that may want, as people 
are no longer living there, young people and young families can 
keep our community going.
    In a rural community, what happens is if the young leave, 
the community dies. So we are working very hard to make sure 
that we keep those young people there. So our focus is, even 
hearing from our younger people, teenagers and all as part of 
this planning process, to make sure that those in the high 
school or the tweens voice their opinions so that we know what 
they are looking for the future so that we are not going to be 
a rural community that dies.
    And rural America has to do that because if we do not do 
that and just keep the status quo, we are not going to be rural 
America in the future, and we are the bread and butter on the 
table. We are where the local food to farm started. And we also 
are what has provided a lot of the basis for the products that 
are made by manufacturers in the city and suburban areas.
    So without, you know, keeping rural America alive--and it 
is also where the bulk of our military come from, because if 
you look at the bulk of the military men and women, they 
predominantly come from rural America. So we believe in working 
with our partners at the Federal level, USDA, ARC, EDA, getting 
whatever we can from external resources as well as showing that 
we can do within as far as if it is a disaster.
    We actually take care of our own and we do not always call 
on FEMA to come in. It is nice to have them there, but if we 
can do it, we do it. We ration our food. If there was like the 
derecho that happened back two summers ago in Virginia, our 
community was hit hard. People were without power, some people 
for 2 weeks.
    Those of us that had food in our freezers, we took grills, 
went to the local high school in the parking lot, grilled food. 
Told the community to come out. Got transportation, those that 
did not have transportation. Come out and have just a barbeque 
so that people had food every day. And that was done for 2 
weeks on end so that people did not have to go hungry, they did 
not have to worry about the food getting destroyed. It was 
being used.
    So the thing is, is that you learn to be resilient when you 
do without, and rural America is really a model for some of the 
inner cities and suburban areas that do not understand how you 
can take what you have got and make the best use of it.
    Senator Menendez. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman, and thanks for 
holding this hearing. I apologize for my late arrival and early 
departure. The President's nominee to be Secretary of the V.A. 
from the other end of the State from Mr. Calabrese is 
testifying today and I need to introduce him and to go back. So 
I appreciate Senator Menendez holding this hearing.
    As Mr. Calabrese knows, it has been a good couple of weeks 
for the city of Cleveland. The Republican National Convention 
announced they are coming to Cleveland. Lebron James announced 
he was coming back to Cleveland. And Joe Calabrese comes to 
this hearing to trumpet Cleveland, so thank you.
    Mr. Calabrese. Do not forget about Johnny Football.
    Senator Brown. And Johnny, oh, yeah, I got that, too.
    Mr. Calabrese has explained some of the things that have 
happened with the Greater Cleveland Regional Transit 
Administration and HealthLine and the billions of dollars in 
investment that have come from this in response to Chairman 
Menendez's question.
    Something else happened there and when I heard the comments 
of Supervisor Collins saying when young people leave the 
community dies, we have a number of cities in my State, smaller 
cities where that has happened. There is also that sort of 
anxiety and fear, one of parents of their children leaving, of 
course, and not seeing the grandchildren as much, but also what 
happens to a town.
    There has been some fear and anxiety even in a city the 
size of Cleveland as young people have looked elsewhere, and I 
think what RTA has done in Cleveland, what has happened with 
the development downtown, what is happening with increasing 
development in neighborhoods--my wife and I just moved from a 
30-miles-away suburb into the city limits of Cleveland. There 
is a lot more life in the city for a whole host of reasons.
    One of the things that made me think, from your comment, 
made me think of this, Ms. Collins, is the year I was born some 
60 years ago, Cleveland, only 2,000 people lived in downtown 
Cleveland. Today about 13,000 do. The city is significantly 
smaller in population, but young people want to move downtown. 
Not just young people, but especially young people with a whole 
different set of issues, grocery stores, transit, how do we do 
all of that?
    So Mr. Calabrese, if you would explain. You answered 
Senator Menendez's question well, I thought, about kind of how 
you did the HealthLine, but talk to me more about how private 
development--I mean, you spend significant public dollars. You 
spend, obviously, private dollars, too, that you raised from 
especially UH, University Hospital and the Cleveland Clinic.
    But talk to me about the process of economic development 
and what we learned from the HealthLine, mistakes you might 
have made, but successes you can trumpet and how we and 
partnerships spur that kind of economic development well beyond 
the Euclid corridor.
    Mr. Calabrese. Well, I think you are right, and the one big 
thing that amazes me, I think I feel very good about the 
future, is the millennials who are moving downtown. They want 
to be downtown. They want to walk, bike, and use public 
transit.
    One of the comments, they would rather spend $7 on a 
martini than $3.50 on a gallon of gasoline. That really is the 
truth. I think they are the individuals who are really 
supportive of this, you know, more development downtown, more 
investment and smart growth, and I think that is going to be 
our future. They are certainly voters of today. They are going 
to be our Senators of tomorrow. I think that is very, very 
positive.
    You are 100 percent right. You know, we have 10 times more 
people living in downtown Cleveland now than when the 
population of the city itself was double what it is today, and 
that is growing. There are over 3,000 apartments being built 
right now downtown, and again, there is a waiting list on 
every--any--every finished structure that is actually spilling 
out from downtown Cleveland to places like Ohio City and 
Tremont because you just cannot get a place downtown anymore.
    And again, these people insist on public transportation, 
and for the Clevelanders, you know, these individuals are going 
to move to Cleveland, hopefully. If not, they are going to move 
to Chicago or New York. They want that corporate--they want 
that urban environment.
    We did an ad actually on the waterfront on one of our light 
rail lines last week for Ernst & Young who has a major facility 
in downtown Cleveland, but it is a recruiting video to try to 
recruit these young people they need as employees at E&Y to 
come there.
    One of the big assets is public transit. You do not need a 
car. You could be car-free in Cleveland. This is what our 
future generation wants and I think it is up to us to try to 
give that to them.
    Senator Brown. Take people--if I could, Mr. Chairman, one 
more question--on the other end of the age spectrum, 
demographic trends of the country, well, obviously, it is to 
talk about the percentage of the population over 65 who will 
increase by 10 percent by 2030. What do we do? What does 
transit do to respond to that, understanding that people will 
probably want to stay where they are? They have different 
challenges with mobility, with getting around, particularly if 
they decide to stop driving. How does a system as large as 
Cleveland deal with that?
    Mr. Calabrese. Quite honestly, I think that is a real 
challenge. I think, you know, a week does not go by where I get 
a call from someone saying, You know, we moved out to Parma 
from downtown and maybe it is I am now a widower. The husband 
has died and the kids have moved away and the question is, when 
is the transit service in Parma going to be as good as it was 
on Euclid Avenue? I say, You know, it is not going to be. You 
really need to move or be in an area of high density.
    But because of the senior growth, the demands are growing 
significantly for our public transit. That is why it is 
important to re-authorize the transportation bill with 
significant resources to address that demand. Not everyone is 
living downtown. We serve people every day on our paratransit 
service, which is critical for those people who do not have the 
physical ability to use public transit. But that is at a $30 to 
$40 per ride cost, again very important. Taking many people to 
dialysis. But there is a cost associated with that.
    Unless the transportation budget addresses those, these 
people are not going to be served, which is very critical and 
very important and something I know you think is very important 
for us to do.
    Senator Brown. Thank you, Mr. Calabrese. Mr. Chairman, 
thank you.
    Senator Menendez. Thank you, Senator Brown. Good questions. 
I want to continue on this millennial question, not because I 
am a part of that universe, but as I would aspire to be.
    Mr. Gibson, your testimony--and you have talked about it a 
little bit in your oral testimony--cites a study that finds 
that a significant portion of the millennial generation is 
looking for diverse transportation options when deciding where 
to live, which is a much different attitude than previous 
generations when everything was driven by--or centered on a 
car.
    I know, Mayor, that Jersey City might very well be called 
Millennial City when we look at the population that has 
changed. The question for both of you, and for others as well, 
is how you are preparing for that new generation with different 
transportation preferences, and how do you balance that with 
the needs of other generations who may be focused on more 
traditional modes of transportation? Mr. Gibson.
    Mr. Gibson. My first crack at that answer is going to be 
through our complete street program. What we find with the 
millennials is they do have a predilection to use bicycles, 
public transportation, and walking. They like to live in close 
proximity to activity centers.
    But in our complete street program, what we aim to do is to 
come back into our centralized areas and provide for treatments 
that slow traffic down. We have had a tremendous benefit in our 
complete street design toolbox when we implement a complete 
street, we see speeds come back down to the speed limit and 
crash rates decline and we see, as a result of that, in our 
community, I think our insurance rates are starting to decline.
    For seniors, what does that mean? Well, a lot of seniors, 
including my 85-year-old mother, still drive. They prefer to 
drive on slower streets. They prefer to drive on streets where 
the different users are separated into their own areas. So I 
think there is an example of where a service, a planning 
program, or a design philosophy helps meet both the needs of 
the millennials as well as the needs of the seniors.
    It also makes it easier for us, when we do come back in and 
improve transit service, to provide for key features such as 
station areas. An interesting thing I saw the other day about 
our community is we are looking at the question of roundabouts, 
and we looked at where roundabouts are located in our 
community.
    What we discovered was they are located in the newly 
emerging suburban areas. Roundabouts are a key feature in new 
subdivision design and development, and to me, that reflects a 
preference on the part of people who are buying new homes to 
have many of these complete street-type treatments provided for 
in these new developments.
    We are hearing from our stakeholders and our communities 
that they want to see those same type of design treatments 
developed in the older communities. Well, who lives in the 
older communities? Millennials and seniors. Millennials 
because, again, they like to be closer to downtown activities. 
They like to be closer to the university. They like to be 
closer to midtown.
    But seniors, because they want to stay in age and stay in 
place in their residences, and they like having those types of 
complete street treatments to improve their safety and that 
ultimately brings transit.
    So what we have experienced is that the complete street 
design toolkit that we see as part of smart growth is a toolkit 
that can meet, at the same time, the needs of seniors and at 
the same time meet the needs of the millennials.
    Finally, coming back and answering your question from 
earlier, is to address what do we do in our public involvement. 
One of the things we strive to do when we are working with 
neighborhoods and communities is to ask them to give us a 
design solution to consider. We want them to come to us and 
say, this is what we would like to see you do when you are 
reconstructing a street or planning a transit route or 
developing something new for a community.
    And if we can, we will incorporate that design concept into 
our project, and if we cannot, we will go back out in a 
workshop and explain to them that we cannot do it and why we 
cannot do it. It is important that when we are working with 
stakeholders, when we are working with folks who may be 
economically challenged at the moment, or they are looking at 
changing their life or they are perhaps millennials moving into 
an urban area, is to try to bring their views on the design of 
streets, bicycle and pedestrian facilities and transit systems, 
and bring those ideas into the design concept and scope, and 
build and operate that.
    Senator Menendez. Mayor, any perceptions from Jersey City?
    Mr. Fulop. I would just echo some of the same sentiments on 
this concept of complete streets and really thinking about the 
pedestrian experience on those streets and trying to encourage 
the pedestrian friendly environment instead of vehicles. It is 
something that definitely caters toward the younger generation 
as well as the older generation that may not be so inclined to 
drive.
    On the challenge front, I would say that, as you are 
familiar with Jersey City, we have density pockets around the 
light rail and the PATH system which does not extend 
necessarily toward the entire city. So one aspect on the west 
side of Jersey City, for example, does not have as much mass 
transportation infrastructure other than the bus system, and as 
pockets of density has changed over time, I think it is 
consistently a challenge for us to kind of revisiting how that 
mass transportation and bus moves some of the older people 
around the city historically. So that is how we look at it.
    Senator Menendez. I think one of the challenges we have is 
creating a quilt that brings the whole community together as 
certain centers of a community rise, but making sure that the 
result of that success does not leave others behind. I think 
that is a great observation.
    Supervisor Collins, let me ask you, your testimony notes 
that Bath County is part of the Shenandoah Valley Partnership, 
and we talk about the challenges for rural areas that are 
different than urban or metropolitan areas, but they are just 
as important.
    How do you think that you ultimately can make a rural area 
be able to compete, particularly in a global economy? You 
talked about getting those young people to stay, not leave. 
They are probably going to be a lot more digital than some of 
their parents or grandparents. So how do you do that and how 
does that come into play with infrastructure and other planning 
issues even for a rural area?
    Ms. Collins. Well, the chief way to do that is, of course, 
in rural America, the need for broadband improvements, either--
many rural localities like ours have DSL, but we do not have 
the high speed, you know, broadband. That is what we are 
working toward in the region, too. In fact, the Shenandoah 
Valley Partnership, many of those localities do not have the 
high speed broadband.
    And yet, they have had growth and we have had growth 
because the business base there is pretty strong. There is a 
strong work ethic. So the existing businesses band together and 
work together along with the health care industry. But now, the 
push is for how can we create broadband that will then tie into 
growing entrepreneurship. Many home-based businesses exist that 
actually--can actually make a living, a very good living, 
better than being under-employed in some of the jobs that 
currently exist.
    And also, to look at how we could take that and create 
marketplaces through Internet marketplaces and have front-
office effect, but have the back-office effect of it being 
where the true money comes from worldwide versus just in the 
community. But yet, the local community can access those 
services and products, and that is something that we are 
working toward with the Shenandoah Valley Partnership.
    We are taking old structures and revitalizing them, 
historic structures, and turning them into office buildings 
that are being fully integrated with technology for purposes of 
use so that young people will get excited about wanting to work 
there. But without the broadband improvements, our area will 
not be able to continue to, you know, grow.
    But our businesses, what they are doing, too, in 
partnership with the governments, are working toward recruiting 
young employees, because we have a base of a lot of 
universities and colleges in the region with James Madison 
University being one of them, Washington and Lee University, 
Mary Baldwin, other colleges, many community colleges that 
are--we are looking at workforce training and what the 
businesses need but how they can grow.
    Our largest employer in our community employees 1,200 
people. Now they are recruiting outside the community bringing 
young people in. Their recruitment tactic is, we can provide 
you with lodging, which they do, a place to live for a low 
amount of money. You can work for us. You get opportunity for 
training. Everything is walkable where the employer is because 
it is in the main business district of the county.
    So we are seeing younger people that are moving in because 
they are only having to pay $80 a week and they are making 
money and they can actually learn and grow. And yes, they may 
not stay there, but at least they are getting an opportunity 
that they might not get somewhere else if they move because the 
cost of living might be higher and they might not be able to 
make a living.
    So some of them are like, they do not have cars. I mean, 
these young people do not have cars. They are being brought in. 
Eighty dollars a week for having a small little apartment that 
they share with somebody that--a total stranger that they are 
working with when they first meet them. And they get the 
opportunity through the employer to be able to access the 
employee cafeteria during the day.
    They also take them through transportation, if they want to 
go 30 miles away to do major shopping. They have transportation 
that takes them there. So that they are able to get out and 
about and have special activities like a Music on Main on 
Friday nights for the whole community, but that is a 
partnership with the businesses. So that these young people, 
when they get off work, they can actually integrate into the 
community. And maybe they will decide to stay there. So that is 
very positive for our community.
    So we are looking at every type of strategy and action that 
we can work together and make sure that we are targeting the 
right industry. One of the things we are seeing is that the 
food industry is a prime industry for our region because of all 
the farms in the Shenandoah Valley, that there are 
opportunities for those products to be marketed and produced 
right there and then marketed and manufactured there and 
growing that economy.
    Senator Menendez. Two final questions. One, Mr. Gibson, in 
2008, the height of the recession, your region's voters 
approved a plan to index their fuel tax to inflation in order 
to have more resources for transportation projects. That is 
obviously a vote that voters do not take lightly. What led the 
residents of your community to make that decision in trying 
economic times? Because maybe we can, you know, create some 
light here in the Senate about how we should deal with some of 
these issues.
    Mr. Gibson. I think it was several factors. One, we did go 
through in the Reno-Sparks-Truckee Meadows area a dramatic 
transformation in the run-up to the great recession. A lot of 
new folks moved into the community, a lot of housing units were 
built. It was a boom time. As a result of the boom time, we 
developed a $3 billion backlog in infrastructure. So voters 
were still experiencing the frustration of not seeing 
infrastructure keep up with growth.
    I think the second thing, though, was an interesting 
transformation in the community and the recognition that this 
was a way the community could take control of its own destiny; 
that it could, through its own political processes, say, We 
will create a stimulus program here for ourselves now and these 
investments will help us create jobs and begin developing the 
regional advantages and comparative advantages that the region 
would need long-term to grow and diversify economically. Those 
were the real driving factors that folks experienced.
    The third just sort of anecdotal piece--I lived in Nevada 
for 25 years, but I, like a lot of Nevadans, came from 
somewhere else, and I think what is happening, especially in 
the Reno-Sparks area, is people do not want to see their 
children leave. So they saw this as an opportunity, by 
increasing their taxes, to invest in their community and, 
again, create a life cycle opportunity through infrastructure 
for the economy to grow and prosper and help keep families 
together.
    I think that was something that I hear a lot about 
throughout town, throughout our urban area, that folks want to 
stay in the area. They enjoy the quality of life. They enjoy 
the Sierras, so they wanted to make sure the infrastructure 
will be able to support that long-term growth.
    Senator Menendez. Mr. Calabrese.
    Mr. Calabrese. Yes, just if I can, you know, recent studies 
said over 70 percent of the transit, public transit referendums 
are approved. So people will vote more money for better public 
transit. I think that is a trend that has been around for a 
while and I think it is a great trend that I think will 
continue.
    Senator Menendez. One final question for all of you, anyone 
who wants to offer any ideas. As we move toward--as I announced 
legislation and we are in the midst of trying to get some 
degree of a re-authorization on the Federal Highway and Mass 
Transit Bill, if you had one or two things that do not exist or 
that exist that you think do not work well, or could work 
better, and you had the opportunity to right it and we could 
pass it, what would that be?
    Are there any incentives, any disincentives? Is there 
something that we have that does not work well, something that 
you would contemplate that we do not have that would be 
valuable on the issues that we have talked about in terms of 
livable communities?
    Ms. Collins. Mr. Chairman, I wanted to comment on the 
broadband accessibility. There are many programs that 
communities can tap into for funding for broadband through USDA 
and, of course, NTIA has had funding in the BTOP program.
    The experience in our region with that has been that it is 
very difficult to bring the private sector businesses to the 
table when you have that funding stream that ties the hands of 
what you have to do to address the broadband, to not make it 
be--to have the tools and flexibility in place from a 
standpoint of being able to work with the private sector, 
because many of the telecommunication and utility companies 
have specific methodologies and business plans for broadband.
    They often are not--they do not gel with what the community 
broadband does. And so, therefore, when a public sector entity 
such as a county government or a county government regionally 
working with city governments, which is what my experience has 
been with broadband, receives a significant amount of funding 
for middle mile projects such as $10 million.
    The private sector is not there at the table because they 
see it as government giving a handout to government. So what 
needs to be done is a re-fashioning of how that is looked at 
from a governmental perspective, to bring in the private sector 
to the table. I know that the FCC is working on funding right 
now and it has, you know, a call for proposals was out, and a 
lot of the telecommunication firms and utility companies have 
provided proposals.
    But yet, there needs to be some kind of partnership 
established so that it truly is a public/private partnership. 
It is very difficult because they are in that industry and 
government is really not in that industry.
    Senator Menendez. Mayor?
    Mr. Fulop. I was just going to say, on the infrastructure 
projects, if there is something that we could continue. 
Obviously, you have been an advocate in Hudson County and New 
Jersey, speaking to the importance of both the State and 
Federal Transportation Trust Fund. You know, the expansion of 
that Hudson Bergen Light Rail is paramount to Jersey City, as 
well as to Bergen County, as well as to Hudson County, and in 
the expansion of the PATH system. And those are two 
infrastructure projects.
    The PATH system on the west side, there is an opportunity 
which you are familiar with, and then the Hudson Bergen Light 
Rail which you were the champion of when you were in the House 
of Representatives in 2000. It has really transformed the 
Jersey City waterfront and most of the city, and I think that 
is really where the opportunities, if there is anything that we 
can be investing in from a Jersey City, Hudson County 
standpoint.
    Senator Menendez. Mr. Calabrese.
    Mr. Calabrese. Yeah, a couple things. One is, certainly, it 
is great to build new projects, but we have got to be sure 
there is enough money to maintain the projects we have. I think 
that is really, really important. I see that every system, 
including my own, there are tremendous needs. Our light rail 
system turned 100 years last December 17th. Some of the parts 
are original. It is also great to talk about expansion, but 
really the state-of-good-repair issues are important.
    Second, which does not take a lot of money, but one thing 
that keeps me up at night is workforce development. We spend 
some money at Rutgers, it is a great job, and NTI in training 
the managers of the future. My big problem is finding the 
mechanics of the future.
    You know, the Federal Government is spending money by 
helping us buy buses, but I think more money has to be invested 
in training, developing, apprenticeship training programs for 
the people who fix our buses, fix our trains, fix our signaling 
system. They are not coming out of high school the way they did 
when you and I were at school in that vein.
    So we need to set up some programs and I think that with a 
modest amount of money and encouragement by the Federal 
Government, that would be important. If you can develop a 
training program to fix a bus that can be applicable to 1,500 
different transit systems instead of everyone developing their 
own.
    So it is a project, and in discussion with the FTA, they 
certainly understand the issue. Eighty percent of the mechanics 
in our industry will be retiring in the next 10 years. So we 
have got to address that. And it is not just a good job, but it 
is a job that helps other people get to work.
    So if we can combine the Department of Transportation, the 
Department of Labor, Department of Education in some kind of a 
program to help train the transit workers of the future, I 
think it would be a great thing for the re-authorization.
    Senator Menendez. Mr. Gibson.
    Mr. Gibson. Mr. Chairman, I think several things. One, I am 
a big believer in the MPO process. We are the MPO, but we are 
also the implementing agency as well. Anything that can be done 
to help integrate metropolitan planning and project 
implementation, to me, is always a good thing.
    Second, I think there needs to be consideration given to 
how Federal investments are coordinated through the MPO 
process. When Federal investments are being planned in what I 
call a customer service level, be it a Veteran's Administration 
facility, a Social Security Administration facility, IRS, 
Court, let us make sure that there is every effort made to 
coordinate with the MPO and make sure that these facilities are 
on transit routes and are available and can be served by public 
transit.
    Third, to Mr. Calabrese's point, fully funding the bus and 
bus maintenance facilities program and making that a key piece 
of re-authorization is important. Mid-size America has a lot of 
challenges. We carry 52 percent of the transit passengers in 
this country, but we need new facilities and new buses.
    I like Joe's workforce development idea. Let us move 
forward with that, but let us also make sure the new buses and 
new technologies are there for them to work on. So those would 
be my three wishes.
    Senator Menendez. Great. Well, thank you all for some 
valuable testimony. It seems to me that we believe that we can 
build communities that can support jobs, that improve our 
economic competitiveness at home and around the world, and I 
hope to advance legislation in a bipartisan manner through the 
Committee and through the Congress, and looking to incorporate 
some of your ideas along the way.
    This record will remain open until a week from today if any 
Senators wish to submit questions for the record. We would ask 
all of our witnesses, if you do receive questions, to please 
respond to them as expeditiously as possible. And with the 
thanks of the Committee, this hearing is adjourned.
    [Whereupon, at 4:14 p.m., the hearing was adjourned.]
    [Prepared statements and additional material supplied for 
the record follow:]
               PREPARED STATEMENT OF SENATOR DEAN HELLER
    Chairman Menendez and Ranking Member Moran, I want to thank you for 
inviting Mr. Lee Gibson, the Executive Director of the Washoe County 
Regional Transportation Commission (RTC), to be an expert witness on 
local and regional community development.
    Mr. Gibson has made great progress in the vitality of Nevada's 
transportation infrastructure. Focusing on Northern Nevada's 
communities' present and future needs, Mr. Gibson's leadership has 
steered the Washoe RTC down a path toward long-term sustainability.
    Under Mr. Gibson's leadership, the Washoe RTC focuses on effective 
planning and implementation of the surface transportation programs that 
serve the citizens of Reno and Sparks, along with areas of Washoe 
County.
    The Washoe RTC has achieved LEED certification for a number of 
their newly completed, recently opened transit centers and proudly 
unveiled four new, all-electric buses that produce zero emissions in 
April of this year. The agency has also developed the SouthEast 
Connector, a major roadway recently recognized by the Federal Highway 
Administration as an exemplary project worthy of demonstrating 
sustainable design practices.
    I welcome Mr. Gibson to testify before this Subcommittee, as his 
policies have contributed to building economically resilient 
communities in Nevada. Mr. Gibson's perspective and knowledge will 
undoubtedly help Members of this Subcommittee and the Senate as a whole 
as we develop Federal transportation policies.
                                 ______
                                 
                 PREPARED STATEMENT OF STEVEN M. FULOP
                     Mayor, Jersey City, New Jersey
                             July 22, 2014
    Chairman Menendez, Ranking Member Moran, and Members of the 
Committee, My name is Steve Fulop, and I'm the Mayor of Jersey City, 
New Jersey. First, I want to thank the Committee for your support of 
smart urban development policy, and especially for your help, through 
the FTA, with the Hudson Bergen Light Rail. It has been 
transformational for our region.
    I appreciate the opportunity to testify before you today, because 
the issues on which this Subcommittee focuses are becoming increasingly 
important to every community in America, and especially to Jersey City 
and New Jersey. As the largest city in the most densely populated 
county in the most densely populated State in the Nation, we are seeing 
a shift in the way people live, work, travel and interact with their 
communities.
    While much of the Nation doesn't look like Jersey City, it is in 
many ways a picture of what's to come. America becomes denser and more 
populous every year, so I think the Jersey City experience has national 
relevance.
    In general terms, I want to speak today about, transit-oriented 
development livable communities, and investment in transportation 
infrastructure.
Growing importance of inter-accessibility between communities
    We as policymakers need to recognize the symbiotic relationship 
between dense urban centers and more open residential communities. This 
relationship will be of increased importance in the years to come, 
because the balance of the United States' population is shifting toward 
urban areas. The Nation's urban population increased by 12.1 percent 
from 2000 to 2010, exceeding the overall growth rate of 9.7 percent for 
the same period.
    But this doesn't mean we should focus our efforts on cities 
exclusively, because cities, suburbs and rural communities all support 
one another. Suburban and rural communities need the economic dynamism 
of cities, and cities need the workforce of suburbs and residential 
communities.
    As the trend of urbanization continues, our economic prosperity 
will come to depend even more heavily our ability to move large numbers 
of people in and out of urban centers quickly. This means direct 
Federal investment in transportation infrastructure, and empowering the 
local communities to make those investments. Investment, however, is 
only half the equation; policymakers on Federal, State and local need 
to reimagine the way we plan our cities and how we catalyze their 
growth, both in terms of population and economic activity.
    I'm here to suggest something really very simple: by connecting 
people to opportunities, we unlock powerful cultural and economic 
synergies.
    I know infrastructure investment is a tall order both financially 
and politically--capital projects in an era of growing government debt 
is never easy--but if it's paired with smart urban planning and 
development policy, it also holds tremendous opportunities and more 
than pays for itself.
Jersey City: A Case Study
    I'm here today to offer you Jersey City, my hometown, as proof of 
that. Two decades ago, Jersey City's Hudson Riverfront was the picture 
of urban decay. It was a largely abandoned, ex-industrial wasteland. 
Defunct railroad yards and dilapidated warehouses dominated the 
streetscape. That area, now often referred to as the Golden Coast, has 
completely transformed. The decay has been replaced with glass and 
steel skyscrapers, shops, restaurants, and small businesses. Thousands 
of residential units and millions of square feet of retail and 
industrial space are under construction right now.
    The new prosperity of Jersey City's waterfront was built on the 
foundation of a pre-existing public transit, the PATH, a trans-Hudson 
metro. Thanks to Chairman Menendez, and the rest of the Subcommittee, 
Jersey City's recovery accelerated with the opening of the Hudson 
Bergen Light Rail system in 2000. Developers and public officials 
quickly recognized the opportunity. And the results were immediate and 
dramatic.
    The Essex Street line on the light rail has catalyzed the building 
of 3,000 residential units in 5 years. Liberty Harbor north, a transit-
oriented development which will consist of 6,000 residential units and 
millions of square feet of residential space, is also clearly a result 
of the light rail. Wherever there is a light rail or PATH station, we 
see recovery, growth, and ultimately prosperity.
    We need to press this advantage. Along with the Mayor of Englewood 
Frank Huttle, I'm cochairing a commission of Hudson and Bergen Mayors 
to make the northern branch extension, which would bring stimulate the 
local economies to five more cities and give at least 130,000 people 
access to new opportunities. I urge the Subcommittee to support this 
project--one look at the effects of the current light rail proves the 
value of this investment.
    Rail transportation and transit-oriented development drive economic 
development as well. Because of the light rail, the PATH, and the 
implementation of housing policies which maximize their benefits, 
Jersey City become has a regional employment center. Every day, 100,000 
people come to Jersey City from New Jersey and New York to work, shop 
and dine. Put simply, Jersey City is flourishing because it is 
interconnected with surrounding communities.
    This phenomenon isn't unique to Jersey City--The Center for Housing 
Policy recently completed a review of studies on housing prices and 
proximity to rail, and their findings make a powerful argument for 
transportation infrastructure: According to dozens of studies from 
across the country over decades, a nearby rail stop can add 6 to 50 
percent to home values. When people are linked to opportunities, cities 
prosper.
    Transit is only one way to bring people and opportunities together; 
another way to connect people with cultural, social, educational, or 
economic opportunities is to create those opportunities where they 
live. This approach, livable community development, means developing 
housing and transportation choices near jobs, shopping, schools and 
parks. The resulting neighborhoods are healthy, and environmentally 
friendly with vibrant local economies and a strong sense of place and 
community.
Lessons learned from Jersey City: Importance of long-term cross 
        jurisdictional planning
    Both transit-oriented development and livable communities cannot 
happen without proactive planning on the local and regional level. This 
is where local policymakers need support from the Federal Government. 
I'm here to urge you to incentivize planning and lend financial support 
for these kinds of projects. Unfortunately, many local governments 
operate reactively, putting out fires, and thinking months instead of 
years ahead.
    When plans are made, implementation funding must be cobbled 
together haphazardly and projects lose momentum. As a result, 
communities develop without a strategic vision guiding them, and 
tremendous opportunities are missed. On the other hand, if local 
leaders are equipped with the tools and resources to truly plan, to 
coordinate their approach to future growth across jurisdictions and 
over longer periods, then livable communities and transit-oriented 
development are within reach.
Specific Recommendations
  <bullet>  Expand the Hudson Bergen Light rail along the Northern 
        Corridor Branch--Hudson and Bergen counties are two of the most 
        densely populated in the State, and both have diverse, mature 
        economies. However, New Jersey is still struggling to 
        completely rebound from the recession and trails behind New 
        York and Pennsylvania in job recovery. To catch up, we need to 
        expand our transportation infrastructure to create jobs in New 
        Jersey and improve the quality of life for residents. Light 
        rail will do just that. We have seen the success the Light Rail 
        has had in stimulating residential and commercial development 
        in Jersey City and Hudson County, and so we can be certain that 
        a full expansion will transform economies around the new 
        stations as well as benefit the cities which already have light 
        rail service.

  <bullet>  Increase trans-Hudson capacity--The most important thing we 
        can do for the entire northeast region is provide greater 
        access the New York City, a major regional economic driver. 
        Currently, all trans-Hudson thoroughfares are operating at or 
        near capacity. A commuter rail project to increase rail 
        capacity under the Hudson was a great idea when it was proposed 
        in the form of ARC in 1995. Now it is more than a great idea, 
        it is critical to the long term competitiveness of the region; 
        our lack of sufficient rail capacity under the Hudson holds our 
        regional economy back.

   Whether it's ARC, the Gateway Project, an extension of the 7-train, 
        trans-Hudson capacity is about much more than New York and New 
        Jersey, the mile and a half under the Hudson river is the 
        single most significant bottleneck in the entire Eastern 
        Corridor. It's an expensive and difficult proposition, but the 
        increases in home values near transit will easily offset costs: 
        According to a study by the Regional Planning Association, ARC 
        could increase home values within two miles of train stations 
        by a cumulative $18 billion.

  <bullet>  Extend PATH system to Newark Airport--The PATH system is 
        crucial to the region's economic health. Extending the network 
        as well as expanding capacity is a worthwhile investment. More 
        specifically, the planned PATH expansion to Newark airport will 
        help downtown Manhattan as well as Jersey City, Harrison and 
        Newark. It puts our region in a unique class with a single seat 
        ride to an airport. Even more significantly, the switchyard at 
        Newark airport will allow trains to run more frequently, 
        reducing head times at peak hours form four and a half minutes 
        to 2 minutes.

  <bullet>  Renew commuter tax credit program--Hundreds of thousands of 
        New Jerseyans rely on this tax break to help them afford the 
        ever rising cost of commuting. Our region's economy as a whole 
        depends on transit and we must make sure it's not only 
        reliable, but affordable. This benefit incentivizes public 
        transit, which reduces congestion and carbon emissions, as well 
        as supports the economy. I urge you to make it permanent.

  <bullet>  Continue to advocate for New Starts--As the primary source 
        of Federal funding for major transit capital investments, 
        including rapid rail, light rail, bus rapid transit, commuter 
        rail, and ferries, our Nation's ability to meet demand for 
        transit rises or falls with New Starts. One of the most 
        pressing challenges of the next half century will be to reduce 
        our Nation's dependence on fossil fuels for transportation, and 
        public transit is one of the few fully realized, cost-
        competitive alternatives.

  <bullet>  Revisit the Livable Communities Act--The Livable 
        Communities Act, proposed by Senator Menendez in 2011, has the 
        potential to improve all communities by supporting their 
        efforts to proactively plan for the future and chart a course 
        for getting there, rather than allowing it to play out 
        haphazardly, and reacting.

   The legislation would actually save taxpayer dollars because 
        investments in facilities, infrastructure and services would be 
        coordinated and proactive. As a local leader, I know that top-
        down mandates often fail to address the challenges unique to 
        each community. This bill recognizes that local leaders need 
        support from the Federal Government, not orders. It promoted 
        strategic thinking by incentivizing cross jurisdictional 
        partnerships to develop solutions that are mindful of local 
        assets, and needs.
Conclusion
    In conclusion, let me reiterate my appreciation for the 
subcommittees' continued support for smart, sustainable urban planning 
and development policy. As you consider how to keep our communities 
competitive and healthy, I urge you to empower local governments rather 
than restrict them, and give them tools rather than mandates. Thank you 
for the opportunity to testify here today and I look forward to 
participating in the discussion around these issues in the future.
                                 ______
                                 
               PREPARED STATEMENT OF JOSEPH A. CALABRESE
 CEO and General Manager, Greater Cleveland Regional Transit Authority
                             July 22, 2014
    My name is Joe Calabrese and I am the General Manager of the 
Greater Cleveland Regional Transit Authority (RTA). I have worked in 
the Public Transit Industry for over 30 years and have been in my 
current position for more than 14 years.
    The Greater Cleveland RTA is a multi-modal transit system 
consisting of heavy rail, light rail, BRT, buses and paratransit, 
serving approximately 200,000 customers on the typical weekday.
    Approximately 63 percent of our customers use our services to get 
to work, with an additional 23 percent using our services to get to 
schools and universities.
    As in many other cities, the use of public transit, and the 
appreciation for the important role transit plays, is growing. No city 
can function effectively without an effective public transit system. In 
Greater Cleveland, RTA ``Connects the Dots''.
    RTA's biggest challenge is keeping up with our aging 
infrastructure's ``state-of-good-repair'' needs, for which Federal 
Capital dollars are crucial. The USDOT estimates that, nationally, we 
have a backlog of $87 billion in capital repairs, just to bring the 
Nation's transit systems into a state-of-good-repair; not including 
normal bus and facility replacements, nor the cost of any service 
expansions.
    There is a tremendous resurgence underway in Cleveland, Ohio. In 
just the past few months we have signed ``Johnny Football'', been a 
finalist for both the RNC and DNC 2016 national conventions, and 
welcomed home Lebron James.
    In the past few weeks, there have been articles in the New York 
Times, the Los Angeles Times and USA Today chronicling Cleveland's 
resurgence.
    Political, civic and business leaders credit a visionary public 
transit investment, which opened in 2008, as jumpstarting this economic 
resurgence. That investment was a Bus Rapid Transit project along 
Cleveland's ``Main Street'', Euclid Avenue, which we named the 
HealthLine . . . and it has been great for the health of the city.
    The HealthLine may have been the first FTA ``New Starts'' award for 
a project that was not traditionally rail. Although the HealthLine 
shares almost all the characteristics of a light rail system, except 
that the vehicles have rubber tires and not steel wheels, it could be 
constructed and operated for approximately \1/3\ the cost of rail. 
These comments are by no means anti-rail. In many instances rail may be 
the best alternative, but I believe that in many situations, BRT done 
right, may be an even better answer.
    These ``rail like'' characteristics are exclusive travel lanes, 
traffic signal prioritization, precision docking, level boarding, off-
board fare collection, real-time information displays at 36 branded 
stations, and 20, 62-foot long hybrid-electric rapid transit vehicles 
with doors on both sides. Our commitment to the community was that the 
HealthLine would be fast, clean, safe and first class. We promoted BRT 
as a new mode that was not a bus, and not a train, but the future.
    This project was very comprehensive and included new sidewalks, 
curbs, roadway, lighting, traffic signaling systems, and bike lanes. 
One hundred and eight (108) traditional bus stops were transformed into 
36 well-lit and landscaped stations. The city of Cleveland even took 
this opportunity to upgrade water and sewer lines along the corridor.
    This project replaced RTA's #6 bus route along Euclid Avenue, which 
was RTA's highest ridership bus route. The net result of the 
HealthLine, for our customers, was a 30 percent quicker travel time and 
a 48 percent increase in ridership just in the first year of operation, 
with an increase in ridership of 60 percent at the 5-year mark.
    The net result for the community was billions in related 
investments. The $168.4 million New Starts grant, 50 percent of which 
was funded through the FTA New Starts program, has now leveraged well 
over $6 billion in development along the corridor.
    In a front page article in the Cleveland Plain Dealer in February 
of 2008, months before the HealthLine opened titled ``The Rebirth,'' 
credited the project with already bringing $4.3 billion of new 
investment to the city.
    The true economic development success of this 9.3 mile project, 
which was completed, on-time and on-budget, was a result of others 
leveraging this transit investment with private investments. These 
private investments then encouraged others to likewise invest.
    A 2013 study by the Institute for Transportation Development 
Policy, concluded that the HealthLine had a return on investment at 
$114 for every $1 invested.
    Beyond the 3,360 job months created by construction, the City's 
Department of Economic Development estimates that, as a result of this 
project there has been:

  <bullet>  540,000 square feet of renovated office space,

  <bullet>  444,000 square feet of new constructed office space,

  <bullet>  The doubling and more of land values, and

  <bullet>  An additional 1,940 new jobs created.

    An area that traditionally suffered from low occupancy rates has 
been transformed to an area that is realizing occupancy rates 
consistently in the area of 85 percent and above.
    My champion on this project is a friend of many in this chamber, 
George Voinovich. Cleveland Mayor George Voinovich saw the vision, Ohio 
Governor George Voinovich was supportive and committed funding, and 
Senator George Voinovich led the charge for Federal participation.
    I am very proud of the role public transit played in leading a 
tremendous resurgence in a city that, quite honestly needed help. This 
could not have been done without the commitment from the Federal 
Transit Administration and the support of Congress.
    I urge a timely long-term fix for the Highway Trust Fund and the 
Mass Transit Account, which includes an increased investment for 
infrastructure state-of-good-repair efforts, workforce development and 
for projects such as the HealthLine.
    Without a long-term solution with predictable and dedicated 
funding, projects such as the HealthLine, which take several years to 
plan, design and build, simply cannot happen.
    Such projects can revitalize our cities, meet the mobility needs of 
our citizens and create needed jobs.
                                 ______
                                 
                 PREPARED STATEMENT OF LEE GIBSON, AICP
         Executive Director, Regional Transportation Commission
                         of Washoe County (RTC)
                             July 22, 2014
    Thank you very much Chairman Robert Menendez and Ranking Member 
Jerry Moran for the opportunity to present this statement for the 
record and speak today on the importance of transportation and economic 
development in the Reno-Sparks metropolitan region in northern Nevada. 
I also want to thank Nevada's Senators--Majority Leader Harry Reid and 
Banking Committee Member Dean Heller who have both been outstanding 
leaders for Nevada's interests during the Great Recession.
    It's said that we can only be sure of death and taxes, but the 
historical relationship of transportation with economic development, 
land use, and housing is so strong, that I believe we can be equally 
sure of that. From the earliest days of our country, the Federal 
Government has furthered land and economic development with support for 
turnpikes, canals, railroads, the Federal interstate system and more 
recently, transit. Access is everything to the health of our 
communities.
About the RTC
    The Regional Transportation Commission (RTC) of Washoe County 
serves as the metropolitan planning organization, local road builder 
and regional transit authority to the nearly 500,000 residents and 5 
million visitors to the Reno-Sparks metropolitan area. The RTC works 
closely with Federal, State and local partners on project and program 
service priorities to improve infrastructure and create jobs. The RTC 
invests over $350 million a year in regional street, highway and public 
transit projects, programs and services. Since 2009, RTC has completed 
a number of significant regional street and highway projects funded 
through a voter approved fuel tax indexing plan known as RTC-05. The 
local option motor fuels tax is indexed to the producer price index and 
since 2009 this program has generated over $500 million which has been 
invested in the local economy through the construction of regional 
roadways, preventative road maintenance, and reconstruction activities. 
Projects funded with this local source of funding include widening the 
freeway system, ongoing construction of a new north-south arterial 
known as the Southeast Connector, and retrofitting local arterials with 
bicycle lanes, improved sidewalks, traffic calming measures, and ITS 
improvements.
    The RTC recognizes the importance of investing in transit. The 
RTC's public transit program includes operating over 70 fixed-route 
buses and 40 paratransit vehicles, and promoting vanpool services. The 
fixed-route and paratransit bus system serves an area of approximately 
58 square miles and has an annual ridership of almost 8.5 million, and 
the services are operated and maintained by private contractors. RTC 
opened a bus rapid transit (BRT) line in 2010 called RAPID, with 
advanced design stations, vehicles and utilizing ITS technology. The 
service has been embraced by the community--Ridership on the BRT system 
increased 19 percent since last year and has for 4 years running 
sustained double digit percentage increases in ridership. RTC is 
planning to expand the BRT system along 4th Street and Prater Way 
linking downtown Reno and Sparks, as well as extending the BRT system 
along Virginia Street to the University of Nevada Reno. The 4th Street 
Prater Way project has already been approved into the Federal Transit 
Administration's (FTA) Project Development phase of the Small Starts 
program.
Planning Is Key
    While we do not claim to have all the answers, there are a number 
of examples that we can point to in our mid-sized metropolitan region 
that may have applicability elsewhere. One of these is our planning 
process to improve quality of life, promote safe and healthy 
communities and develop our community both economically and 
sustainably. Together with our stakeholders, the RTC has created a 
unifying vision for regional development, based on scenario planning, 
with broad involvement of the public at large, local elected officials 
and the business community. The results of the most recent effort in 
this educational, scenario planning and visioning exercise are 
incorporated in the document submitted to the Committee with this 
paper, the 2035 Regional Transportation Plan which reflects public 
interest in livable communities with mixed uses that permit walking or 
bicycling for many kinds of shopping, recreational and service needs. 
Key to our planning process are partnerships that promote efficiency, 
consensus, and sensitivity.
    The Regional Transportation Commission of Washoe County was 
recognized by the American Planning Association in 2013 for their 2035 
Regional Transportation Plan, the region's 20-year long range plan that 
followed an 18-month public participation process. The process entailed 
an extensive and comprehensive community engagement program to develop 
the transportation vision, policies and priorities for the Washoe 
County metropolitan area's future transportation system.
Why Livability?
    Our primary goal in Nevada is to create jobs and expand economic 
opportunity. Key to the State's success is maintaining and improving 
the quality of life for our residents and visitors. Very important to 
our region is affordable housing, proximity to family and friends, 
mobility, walkability, and public transportation. Clearly 
transportation's contribution is critical to creating a 21st century 
economy.
    What we are learning from our community is that a large majority of 
Millennials want access to better transit options and the ability to be 
less reliant on a car. According to a new survey of Millennials in 10 
major U.S. cities, released by The Rockefeller Foundation and 
Transportation for America, more than half (54 percent) of Millennials 
surveyed say they would consider moving to another city if it had more 
and better options for getting around, and 66 percent say that access 
to high quality transportation is one of the top three criteria they 
would weigh when deciding where to live. Young people are the key to 
advancing innovation and economic competitiveness in mid-sized cities, 
like Reno and Sparks, Nevada. The RTC has to balance a car-centric 
model of mobility and consider more equitable and sustainable 
transportation options.
    While I claim no expertise in the area of affordable housing, I 
would point out that studies by the Brookings Institution and the Urban 
Land Institute in recent years have demonstrated the close relationship 
between transportation and housing costs. Families and seniors who 
cannot afford housing close to central city jobs frequently buy further 
out, with resulting increased household costs for transportation. This 
often leaves the elderly and disabled isolated from community services. 
Families in most American cities spend an average of 20 percent or more 
of their household income on transportation--the largest single expense 
outside of housing.
    These community members are our friends and neighbors; some of them 
are our honored service men and women; and, they rely on us to provide 
transportation solutions critical to their well-being and mobility. 
Across the country, the demand for more efficient and reliable 
connections, by seniors and individuals with disabilities, to doctor 
appointments, shopping, activities, religious services, among others, 
is rapidly outpacing the ability to adequately provide service. The RTC 
is working with our Federal delegation to develop a pilot program that 
seeks to address these issues by expanding the flexibility of dedicated 
Federal resources to include operating costs as eligible for formula 
and grant funding; to increase the Federal match for senior and 
disabled service; and to ensure that new Federal services and medical 
facilities are sited along existing transit and transportation 
corridors by requiring that these planning documents be reviewed and 
approved by the local metropolitan planning organization.
Livability Projects in Washoe County
    Our region values safety, access and mobility. In response the RTC 
has developed and constructed several important projects to improve 
quality of life; they are described here.
    Sutro Street--This project improved conditions for transit riders 
on three major bus routes in Reno. This project provides Washoe County 
residents access to schools, work and medical facilities. Most notably 
the routes on this section of Sutro Street provide access to the Senior 
Center, the Salvation Army, the Washoe Ability Resource Center, Renown 
Regional Medical Center and multiple schools including Charter and high 
schools. Seventeen bus stops were improved to benefit the quality of 
life for the substantial elderly and disabled population in this area.
    RAPID BRT service on Virginia Street--The Virginia Street Corridor 
is the cornerstone of RTC transit service; designated a Transit-
Oriented Development (TOD) corridor by the city of Reno, and selected 
by the Truckee Meadows Regional Planning Agency as the preferred 
corridor for demonstrating TOD operational and development strategies, 
improvements along Virginia Street will attract choice riders. This Bus 
Rapid Transit line also known as RAPID operates for 7 miles along 
Virginia Street and includes upgraded bus stops, real-time vehicle 
arrival information, distinctive articulated buses, queue-jumping 
lanes, signal pre-emption or priority and designation of existing curb 
or roadway lanes. The new demonstration service began operation on in 
October 2012 and data show a 10 percent increase in ridership in the 
corridor.
    4th Street Station and Centennial Plaza--This project created 
intermodal transportation facilities in Downtown Reno and Sparks that 
are currently operating over capacity. The new transit centers were 
designed to meet long-term transportation demands as well as community 
needs including childcare, retail services, access to a shelter and new 
baseball park.
Investing in the Future of Northwestern Nevada
    4th Prater Way--This project will improve safety, support local 
redevelopment plans, and improve infrastructure for walking, biking, 
and transit. The 4th Street/Prater Way Complete Streets Project will 
reconstruct and revitalize our historic and aging downtown corridor by 
upgrading the arterial roadway that links Reno to the city of Sparks 
and the greater Washoe region. The design of this project benefited 
from extensive public involvement and reflects the community's demand 
for a rapid transit corridor, commuter bike lanes, accessible 
sidewalks, enhanced bus stops, traffic signal coordination 
infrastructure and traffic calming features.
    Virginia Street RAPID Extension linking UNR/Midtown/Downtown--This 
year, the RTC will be considering an extension of the RAPID BRT from 
downtown to the University of Nevada. In addition, the RTC must 
retrofit an existing maintenance facility as well as construct a new 
large vehicle facility to accommodate additional articulated buses and 
clean fuels vehicles.
    Southeast Connector--This highway project is an important regional 
investment in the Truckee Meadows that addresses the long-term 
transportation needs to improve the safety and mobility of people, 
goods, and services in the Reno/Sparks area. The project is an ongoing 
effort between the RTC, partner agencies, and the community that began 
almost 50 years ago. Once completed, the new Southeast Connector 
roadway, which will be called Veterans Parkway, will stretch 5.5 miles 
from the intersection of Greg Street and Sparks Boulevard at the 
northern end, to the existing intersection of Veterans Parkway and 
South Meadows Parkway at the southern end. The Southeast Connector 
Project will provide many long-term benefits to the community and to 
the quality of life of Truckee Meadows residents. Utilizing valuable 
input received from Federal, State, and local agencies; regional 
environmental groups; and local business and community organizations, 
the project team has developed strategies to optimize traffic 
operations; enhance the environment within the corridor; and maximize 
the safety of drivers, bicyclists, and pedestrians.
Principles for Reauthorization
    Raise the gas tax--The citizens of Washoe County Nevada have 
increased local fuel taxes and so have many other communities around 
the country because the voters understand the importance of the need to 
invest in infrastructure and the link that has to economic development. 
The Federal Government should do the same. Congress should continue to 
look for other ways to expand the base of funding like off shore tax 
relief for foreign investments brought home.
    Congress should continue to utilize the gasoline tax as a source of 
revenue for the Highway Trust Fund, and increase it to ensure adequate 
resources for future needs. The gasoline tax has not been raised in 20 
years and has not kept pace with the increasing costs of highway and 
transit maintenance and construction. The history of the Federal 
gasoline tax goes back to 1932, when the Federal Government levied a 1-
cent tax. Three presidents increased the gasoline tax to reduce 
deficits at the time. President Reagan was the first to do so in 1983 
when he raised it to 9 cents followed by President Bush who raised it 
to 14.1 cents in 1990 and finally, President Clinton who raised it to 
18.4 cents in 1993.
    By increasing the gas tax, Congress can decrease or even eliminate 
the reliance on general funds and fund infrastructure repair. Indexing 
the tax would help ensure that revenues keep pace with costs in the 
future. In 2009, Washoe County residents passed a measure that indexed 
the local gas tax and allotted those funds to road construction and 
repair. Indexing has been successful and is credited with creating 
opportunities for economic development, and improving transportation 
options for people to get to work, school, health care, and daily 
activities in Northern Nevada.
    There is growing recognition of America's underinvestment in its 
infrastructure. It is paramount that Congress return solvency to the 
Highway Trust Fund and the mass transit account. The American Society 
of Civil Engineers gave our country's infrastructure a D+ as many 
elements of our most critical systems are aging, deteriorating and 
severely congested. By allotting sufficient funding to the Highway 
Trust Fund, Congress can ensure that our country's infrastructure is 
sustainable and safe for future use.
    Federal Funding for Bus and Bus Facilities--Many of the Nation's 
small- and mid-sized transit authorities lack sufficient capital 
funding to construct and develop bus maintenance facilities and 
stations, and to purchase vehicles and equipment. MAP 21 significantly 
reduced the amount of bus program funds available--in effect cutting 
the longstanding bus program in half. There is a severe and inequitable 
imbalance between the funding available for bus capital and the needs 
that exist. According to The Bus Coalition, bus systems in the United 
States carry more than 52 percent of all transit riders yet receive 
only 9.5 percent of capital program funds under MAP 21. Congress should 
restore that funding and create a competitive discretionary program 
that would provide FTA with the authority to fund both the development 
of facilities/stations and bus purchases alike.
    The RTC is considering the construction of a new vehicle 
maintenance facility to replace our current one located under the US395 
viaduct. Height limitations and the inability to use alternative fuels 
make this facility outdated and inefficient. However, because the 
funding for the FTA bus and bus facility program was significantly cut 
in MAP 21 and the remaining funds formularized, it is unlikely RTC will 
be able to amass the capital necessary to develop such a facility 
anytime soon. This will limit our ability to expand public 
transportation service, increase our use of alternative fuels in our 
fleet, maintain vehicles in a state of good repair, and continue to 
support job growth in emerging sectors of the economy.
    Washoe County's need for a new maintenance facility would qualify 
for funding under a restored bus program, and benefit many other 
communities across the country facing these similar funding challenges. 
Increased funding for this program would directly translate into jobs 
and an improved state-of-repair of our transit infrastructure.
    Federal policies should support Smart Growth and Complete Streets 
legislation--Transit-oriented development should be supported with 
Federal tax credits, incentives to banks to lend money to TOD 
developers. Further, USDOT should encourage the development of greater 
responsibility by regional planning agencies and/or Metropolitan 
Planning Organizations for the coordination of federally supported 
transportation with federally supported housing and environmental 
decisions.
    Streamline Federal Regulatory and Permitting Process--There is a 
continuing need to reduce the regulatory burdens posed by the 
permitting and environmental processes. While we recognize the 
important role environmental requirements play in developing 
transportation projects, the process should be more transparent and 
streamlined. Project sponsors are hindered in their planning efforts by 
unnecessary delays in the regulatory process and inability of Federal 
agencies to act in a timely way on permit applications. Many aspects of 
the Federal permitting process are laden with uncertainty and 
unpredictability that hinders investment, economic growth, and job 
creation.
Conclusion
    National goals for global competitiveness, energy security, 
environmental sustainability and economic vitality, all point to 
transportation investment. When compared with Europe and much of Asia, 
our current transportations systems struggle to compete. We need 
efficient, multi-modal rural, suburban and urban transportation systems 
that will keep America's economic engines productive and efficient. 
Federal standards should be established to promote and support the 
incremental development of top quality public transit systems, 
providing real travel choices to residents, in every area of our 
country--decisions for investments over the next 30 years that will 
affect future generations. New paradigms must include sustainability, 
environmental responsibility, accountability, walkability, regional 
planning, urban goods movement, and transportation and housing choices.
    Thank you again for this opportunity.
                                 ______
                                 
                  PREPARED STATEMENT OF CLAIRE COLLINS
                   Supervisor, Bath County, Virginia
        on behalf of the National Association of Counties (NACo)
                             July 22, 2014
    Thank you, Chairman Menendez, Ranking Member Moran and Members of 
the Subcommittee for the opportunity to testify today on building 
economic resilient communities at the local level.
    My name is Claire Collins and I am a County Supervisor in Bath 
County, VA. Today I am testifying on behalf of the National Association 
of Counties (NACo) which represents all 3,069 county governments in the 
United States.
About NACo
    Founded in 1935, NACo assists America's counties in pursuing 
excellence in public service to produce healthy, vibrant, safe and 
resilient counties. NACo promotes sound public policies, fosters county 
solutions and innovation, promotes intergovernmental and public-private 
collaboration and provides value-added services to save counties and 
taxpayers money.
    This past year, NACo and counties across the country have been 
working on the ``Resilient Counties'' initiative that was created to 
help counties bolster their ability to thrive amid ever-shifting 
physical, social and economic conditions--including unexpected events 
ranging from natural or man-made disasters, plant closures and declines 
in specific industries. Through this initiative, NACo has worked to 
strengthen county resiliency by building leadership capacity to 
identify and manage risk and enable counties to become more flexible, 
responsive and prepared.
    I want to thank you, Chairman Menendez, Ranking Member Moran and 
Members of this Subcommittee for recognizing the importance of 
strengthening the economic resiliency of our communities, and again, 
for allowing me to testify on behalf of NACo.
    Today I will focus my remarks on the how counties, and especially 
rural counties, across the country have bolstered their ability to 
thrive amid ever-shifting physical, social and economic conditions and 
what more can be done at the Federal level to support local economies.

    Specifically, I will address three key issues:

  1.  Rural counties play a key role in building economically resilient 
        communities

  2.  Improving transportation systems, housing options and job 
        opportunities is critical to enhancing local economic 
        development and resiliency

  3.  Strengthening the Federal-State-local partnership is critical to 
        local economic resiliency
Rural counties play a key role in building economically resilient 
        communities.
    First, Mr. Chairman, counties play a distinctive role in economic 
resiliency as stewards of their local communities and are an integral 
part our Nation's intergovernmental system of Federal, State and local 
governments.
    Counties are responsible for supporting and maintaining key public 
infrastructure, transportation and economic development assets; 
creating and sustaining a skilled workforce to meet the needs of 
business; promoting public health and public safety to protect our 
citizens and implementing a broad portfolio of Federal, State and local 
programs in a cost-effective and accountable manner.
    Counties maintain safe roads, bridges, airports and transit systems 
and ensure that we have clean water and effective wastewater systems. 
They maintain our parks and recreation programs, libraries and 
recycling facilities. They also provide access to health care, 
especially for the uninsured and indigent, and serve as the community 
``safety net'' for our children, elderly, disabled, mentally ill, and 
other vulnerable populations.
    At the leadership level, county elected officials are tasked with 
shaping county and community policies and investments that enable 
economic and community development and are instrumental in moving their 
communities forward by providing the business conditions, critical 
infrastructure and capital necessary for private industry to flourish. 
In an era where ``doing more with less'' has become the norm, counties 
must make certain that the investments made in building communities 
carry through the long term.
    My county, Bath County, is located in the Alleghany Mountains of 
Virginia with a population just over 4,600. Our rural county has 
actively engaged the local community to build an economy that is both 
strong and resilient. Although we face many challenges, we are focusing 
on improving our transportation systems, developing infrastructure, 
providing affordable housing opportunities, and building and sustaining 
a skilled workforce that can help our community be globally 
competitive.
    For an example of how we are working to create the partnerships and 
environment needed for economic resilience, Bath County uses its 
convening powers to engage businesses as part of the Shenandoah Valley 
Partnership (SVP)--which includes the neighboring counties of Augusta, 
Highland, Page, Rockingham, Rockbridge, and Shenandoah. SVP is not only 
a public-private-partnership, but is the one-stop economic development 
resource for businesses seeking expansion or location in Virginia's 
Shenandoah Valley. Through regional cooperation, this partnership 
between the public and private sectors brings together business, 
government, and education leaders to promote new investment, strengthen 
existing business and guide labor force development to ensure a healthy 
economic future for the region.
    Other counties across the country are also utilizing strategic 
partnerships to build and strengthen their local economies. For 
example, the Region Five County Development Commission in rural central 
Minnesota developed a plan to create a community driven-university 
assisted partnership around a long-term vision for the region that will 
integrate housing, transportation, natural environment (land use) and 
economic development (including energy and local foods). The strategies 
they are developing through civic engagement will provide opportunities 
and improve the quality of life of all residents.
    For homeownership, the five county region created Central Minnesota 
Housing Partnership's (CMHP) Home Stretch classes to educate residents 
about home buying, including potential downpayment assistance or other 
programs to help homebuyers get into their home and/or receive funds 
for energy efficiency improvements. Through their Resilient Regional 
Transportation Plan, they are seeking to ensure that transportation 
projects are designed to serve the regions' mobility, land use and 
economic development needs in a safe manner. Other pieces of 
transportation system are to maintain and improve the existing road 
system, increase public transportation services in the region, and 
expand infrastructure serving pedestrians and bicyclists.
    Collaboration and partnerships like these will enable rural 
communities to provide more opportunities for the businesses and 
citizens we serve.
Second Mr. Chairman, improving transportation systems, housing options 
        and job opportunities is critical to enhancing local economic 
        development and resiliency.
    Counties across the country are also responsible for building and 
maintaining 45 percent of the public roads, 230,690 bridges and are 
involved in a third of the Nation's transit and airport systems that 
connect residents, businesses and communities.
    Federal and State highway funding for county transportation 
projects is increasingly not meeting local needs. Based on Federal 
Highway Administration (FHA) data, the share of Federal and State 
funding to local governments for highways decreased by 10 percent 
between 1998-2011. The latest Federal surface transportation law (MAP-
21) further skewed the allocation of funds away from local governments. 
While local governments own 43 percent of the Federal-aid highways 
system, local areas receive a suballocation that is equal to 16 percent 
of the MAP-21 National Highway Performance Program (NHPP) and the 
Surface Transportation Program (STP) funding for Federal-aid highways. 
A combination of Federal budget cuts, the effect of the recession on 
State and local governments are contributing to a widening gap in 
transportation funding available to counties.
    Further, counties--and especially rural counties--face the dilemma 
of rising costs of infrastructure projects and limitations on their 
ability to generate revenue. The cost of construction and materials 
increased by 44 percent between 2000-2013, more than the 35 percent 
rise in the overall rate of inflation. At the same time, most States 
limit counties' ability to raise revenue. Forty-three (43) States have 
some type of limitation on the property taxes collected by counties, 
including 38 States that impose statutory limitations on property tax 
rate, property tax assessments, or both. Only 12 States authorize 
counties to collect their own local gas taxes, which are limited to a 
maximum rate in most cases and often involve additional approvals for 
implementation.
    Despite these challenges, counties across the Nation invest $25 
billion annually in economic development efforts. They spend $106 
billion annually to build, maintain and operate roads, bridges, 
transit, water systems and other public facilities.
    Through such investments in infrastructure, counties have 
facilitated private sector growth and accelerated economic development.
    NACo has also found that counties can facilitate economic growth by 
leveraging transportation and infrastructure assets to forge private 
sector partnerships and attract new businesses.
    For example, Rutherford County, NC (with a population of 67,300), 
used the decline of the local manufacturing sector as an opportunity to 
diversify and strengthen its economic base. They did this by treating 
existing infrastructure assets, such as vacant industrial buildings, a 
robust electric power and water network, and broadband expansion, as 
marketing tools to attract data centers to the county. In 2010, 
Rutherford County successfully recruited Facebook to invest over $900 
million in two new data centers. Because data centers require access to 
a massive and reliable energy source along with a supply of water to 
serve as a coolant, county leaders were able to make the case that 
locating to Rutherford County was the most affordable option for 
Facebook.
    Another example of a smaller rural county utilizing existing 
infrastructure assets to create economic development under challenging 
circumstances at the Federal level is Brookings County, South Dakota. 
Brookings County developed an innovative public-private partnership to 
help realize a county-wide economic development vision that targeted 
investments to support growth industries. Brookings County has a 
population of just over 32,000, and has experienced a 20 percent 
population growth in the past 10 years. The county has utilized its 
many existing amenities to support successful business development and 
entrepreneurship, including its location along a major transportation 
corridor in eastern South Dakota and its vicinity to South Dakota State 
University. In fact, the Vision Brookings Coalition, a partnership with 
Brookings Economic Development Commission, the area Chamber of Commerce 
and Downtown Brookings, Inc., raised $4.1 million in 5 years to support 
projects like the construction of the South Dakota State University 
Innovation Campus. That particular site has walking, jogging and bike 
trails, and is accessible via public transportation. An analysis shows 
that the short-term impacts of these investments included over 1500 net 
new jobs created from 2006-2009, 25 new retail establishments, and the 
construction of over 700 housing units.
    Planning for economically resilient communities is by its nature a 
regional effort. Counties are unique in that they are at their core a 
regional form of government, especially in rural America. Whether 
acting individually, with neighboring jurisdictions or through regional 
councils, counties have the primary role in land-use planning and 
economic development decisions that impact and determine the growth, 
development and livability of communities.
Third Mr. Chairman, strengthening the Federal-State-local partnership 
        is critical to local economic resiliency.
    Over the past half-century, State and local governments have 
increasingly borne the cost of infrastructure and public improvements. 
According to the Congressional Budget Office, about 75 percent of 
public funding for transportation and water infrastructure alone is 
supplied by State and local governments. It goes without saying that 
the increased economic burden taken on by State and local governments 
decreases their economic resiliency as they strain to meet the many 
needs of their residents.
    The growing burden taken on by our local and State governments is 
especially problematic for our Nation's rural communities, which are 
facing enormous pressure from global competitors. Our rural regions 
have the capability and drive to compete and take advantage of new 
opportunities, and it is therefore imperative that the Federal 
Government have the policies, program tools and flexibility to assist 
rural communities and regions with cutting-edge, asset-based regional 
innovation strategies and investments.
    To be successful in the modern economy, rural entrepreneurs and 
communities must be connected to global and domestic markets--
digitally, institutionally, and physically. This requires a new level 
of sophistication and capacity within our rural regions and within our 
Federal agency partners. It will also mean improving Federal 
interagency collaboration, fostering stronger public-private-nonprofit 
partnerships, preparing our rural workforce for new challenges and 
developing more modern infrastructure and community facilities.
    The importance of Federal partnerships with State and local 
governments is demonstrated through the positive results of existing 
examples of such partnerships.
    In Bath County, we are partnering with the Federal Government to 
develop and expand broadband accessibility for our local community. 
Through a grant from the U.S. Department of Housing and Urban 
Development's Community Development Block Grant program, we are working 
to address our region's broadband needs and are in the process of 
determining whether to build our own system or partner with the private 
sector to expand broadband accessibility. Through the planning grant, 
our counties recognize the economic value of expanding broadband and 
how it is critical to maintaining a skilled workforce, attracting and 
expanding businesses, and ensuring the overall competitiveness of our 
region.
    Bath County also relies on Federal partnerships to address our 
communities' pressing housing needs. With limited and dilapidated 
housing for our existing workforce and low- to moderate-income 
individuals, two Community Development Block Grants were awarded to 
rehabilitate and reconstruct homes and improve infrastructure, drainage 
and roads in two neighborhoods. One of these grant funded projects, 
Pinehurst Heights Community Improvement Project is near completion and 
the second project, the Thomastown Community Improvement Project, is 
just beginning. The Thomastown project will benefit at least 60 
residents, of which 33 will be low- to moderate-income (LMI) residents. 
This project will stabilize the neighborhood, preserve existing housing 
stock and improve the overall environment and living conditions of the 
Thomastown area.
    These are just some of the examples of effective partnerships 
between Federal and local governments that provide much-needed 
assistance to local communities in their efforts to provide needed 
services to their residents. Continuing, expanding and strengthening 
these partnerships is imperative to increasing local economic 
resiliency across our Nation.
Conclusion
    In conclusion, Mr. Chairman, counties have a unique role in 
economic development and building resilient communities--specifically 
as partners with other levels of government, the private sector and 
nonprofits. The main reason counties engage in economic development and 
resiliency initiatives is to improve the well-being of their 
communities and the people they serve.
    Counties of all sizes across the country are problem-solvers, able 
to adjust their initiatives and programs to match local assets and 
needs, and have a distinct ability to mobilize and coordinate resources 
for economic development. Local economic development challenges often 
require a regional solution and counties are best positioned to serve 
as conveners for such initiatives due to the legitimacy and 
accountability they have as formal governments covering both 
incorporated and unincorporated areas in a region. This enables us to 
exercise leadership in collaboration with both local public and private 
entities to address common economic resiliency challenges.
    Counties understand that strategic planning with partners at the 
Federal, State and local levels is necessary to build strong economies 
and to make their communities more resilient to unexpected events 
ranging from natural disasters to plant closures and long-term declines 
in specific industries. As both global and local challenges arise, 
counties are poised to lead, convene and participate in economic 
development efforts.
    Thank you again, Mr. Chairman and Members of the Subcommittee, for 
the opportunity to appear before you today. We appreciate your interest 
in exploring new opportunities to build economically resilient 
communities at the local level.
    We look forward to continuing the dialogue with you. I would be 
pleased to answer any questions.

              Additional Material Supplied for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
